Nos. 20-37 & 20-38
In the

Supreme Court of the United States
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH & HUMAN SERVICES, et al.,
Petitioners,
v.
CHARLES GRESHAM, et al.,
Respondents.
STATE OF ARKANSAS,
v.
CHARLES GRESHAM, et al.,

Petitioner,
Respondents.

On Writs of Certiorari to the United States Court
of Appeals for the District of Columbia Circuit
BRIEF AMICI CURIAE FOR
PUBLIC HEALTH, HEALTH POLICY AND
MEDICINE DEANS, CHAIRS AND SCHOLARS
IN SUPPORT OF RESPONDENTS
Edward T. Waters
Counsel of Record
Phillip A. Escoriaza
Feldesman Tucker Leifer Fidell LLP
1129 20th Street, NW, Suite 400
Washington, DC 20036
(202) 466-8960
ewaters@ftlf.com
Counsel for Amici Curiae
302397

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
GLOSSARY OF ABBREVIATIONS
AND ACRONYMS  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  xix
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 6
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

Congress Enacted § 1115 to Permit States
to Test New Approaches to Expand Access,
Provide Better Services, and Strengthen
Social Programs.  . . . . . . . . . . . . . . . . . . . . . . . . . . 9

II. Early § 1115 Demonstrations Heeded
Congressional Intent that Experiments
Strengthen Medicaid and other Social
Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
III. Since 1965 Congress Has Added Important
Protections to Ensure Demonstrations
Promote Medicaid’s Purpose.  . . . . . . . . . . . . . . 11
IV. Petitioners Cannot Use § 1115 as a Shortcut
for Reversing Expansion.  . . . . . . . . . . . . . . . . . . 14

ii
Table of Contents
Page
V.

Petitioners’ Approvals of Elig ibility
Restriction Experiments in Arkansas and
New Hampshire Violated Research Norms
by Lacking A Basis in Evidence and by
Failing to Ensure States Conduct Adequate
Demonstration Evaluations. . . . . . . . . . . . . . . . . 16

VI. Petitioners Consistently Sidestepped
Evaluation Principles Contained in Their
Own § 1115 Guidance.  . . . . . . . . . . . . . . . . . . . . . 21
VII. Me d ic a id Ex p a n sion’s R em a rk able
Achievements in P rov iding Medical
A s s i s t a n c e t o Un i n s u r e d A d u l t s
Made the Impact of Imposing Work
Requirements, Coverage Lock–Outs and
Limited Retroactive Eligibility Even
More Catastrophic. . . . . . . . . . . . . . . . . . . . . . . . . 23
A. Expansion in A rkansas and New
Ha mp sh i r e A ch ieve d D r a m at ic
Reduct ions i n Tot a l Un i nsu red
Adults . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
B. E x t en s i ve C om ment a r y i n t he
Administrative Record Made Clear the
Risks Created by Work Requirements
and Coverage Restrictions. . . . . . . . . . . . . . 26

iii
Table of Contents
Page
C. There is No Realistic Expectation
That Those Leaving Medicaid for
Work will Find Alternative Sources of
Health Insurance.  . . . . . . . . . . . . . . . . . . . . 30
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iv
TABLE OF CITED AUTHORITIES
Page
CASES
Beno v. Shalala,
30 F.3d 1057 (9th Cir. 1994) . . . . . . . . . . . . . . . . . 12, 18
Comacho v. Tex.Workforce Comm’n,
408 F.3d 229 (5th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 3
Dep’t of Commerce v. New York,
139 S. Ct. 2551 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 21
Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 28
Getty v. Fed. Savs. & Loan Ins. Corp.,
805 F.2d 1050 (D.C. Cir. 1986) . . . . . . . . . . . . . . . . . . 29
Gresham v. Azar,
363 F. Supp. 3d 165 (D.D.C. 2019) . . . . . . . . . . . . . . . . 5
INS v. Cardoza–Fonseca,
480 U.S. 421 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Motor Vehicle Mfrs. Ass’n of U.S. v.
State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

v
Cited Authorities
Page
Newton–Nations v. Betlach,
660 F.3d 370 (9th Cir. 2011) . . . . . . . . . . . . . . . . . 12, 18
Philbrick v. Azar,
397 F. Supp. 3d 11 (D.D.C. 2019) . . . . . . . . . . . . . . . . . 5
T.H. v. Jones,
425 F. Supp. 873, 877 (D. Utah 1975),
aff’d sub nom. Jones v. T.H., 425 U.S. 986 (1976) . . . 3
FEDERAL STATUTES
42 U.S.C. § 254b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
42 U.S.C. § 1315  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1396  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 27
42 U.S.C. § 1396–1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
42 U.S.C. § 1396a  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 14
42 U.S.C. § 1396d . . . . . . . . . . . . . . . . . . . . . . . . . . . .  14, 16
42 U.S.C. § 1396o  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Patient Protection and Affordable Care Act,
Pub. L. 111–148, 124 Stat. 119 (2010)  . . . . . . . . . . . . 11
P u b l i c We l f a r e A m e n d m e n t s o f 1 9 6 2 ,
Pub. L. No. 87–543, 76 Stat. 172 (1962) . . . . . . . . . . . . . 9

vi
Cited Authorities
Page
Social Security Amendments of 1965, Pub. L.
No. 89–97, sec. 121(c)(3), § 1115, 79 Stat. 352
(42 U.S.C. § 1315 (Supp. I 1965))  . . . . . . . . . . . . . . . 11
Tax Equity and Fiscal Responsibility Act,
Pub. L. 97–248, 96 Stat. 367 (1982) . . . . . . . . . . . . . . 11
FEDERAL REGULATIONS
42 C.F.R. Part 431, subpart G . . . . . . . . . . . . . . . . . . . . . 19
42 C.F.R. § 431.412 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
42 C.F.R. § 431.424 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
LEGISLATIVE MATERIALS
Edward C. Liu & Jennifer A. Staman, C ong.
Research Serv., R44802, Judicial Review
of M edica id Work R equirements Under
Section 1115 Demonstrations (Mar. 28, 2017),
https://fas.org /sg p/crs/misc / R 4 4 8 02 .pdf
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . . 4
Medicaid at 50: Hearing Before the H. Comm. on
Energy and Commerce, Subcomm. on Health,
114th Cong. 7 (July 8, 2015) (responses to additional
questions for the record of Vikki Wachino, CMS
Deputy Administrator and Director for the Center
for Medicaid and CHIP Services), https://docs.
house.gov/meetings/IF/IF14/20150708/103717/
HHRG-114-IF14-Wstate-WachinoV-20150708SD002.pdf (last visited Feb. 15, 2021)  . . . . . . . . . . . 13

vii
Cited Authorities
Page
S. Rep. No. 1589 (1962), reprinted in 1962
U.S.C.C.A.N. 1943, 1947, 1961 . . . . . . . . . . . . . . . . 9, 10
S. Rep. No. 744 (1967), repr inted in 1967
U.S.C.C.A.N. 2834, 2863  . . . . . . . . . . . . . . . . . . . . . . 11
OTHER SOURCES
A rk ansas Center for H ealth I mprovement,
Arkansas Health Care Independence Program
(“Private Option”) Final Report (June 30,
2018), https://achi.net/library/private-optionfinal-report/ (last visited Feb. 13, 2021) . . . . . . . . . . 24
Lara Antonisse et al., The Effects of Medicaid
Expansion under the ACA: Updated Findings
from a Literature Review, K aiser Family
Fou n dat ion (Mar. 2018), http://files.kff.
org /attachment/Issue-Brief-The-Effectsof-Medicaid-Expansion-Under-the-ACAUpdated-Findings-from-a-Literature-Review
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . 24
Jessica Barnett & Edward Berchick, Health
Insurance Coverage in the United States: 2016
Current Population Reports, U.S. Census
Bureau (Sept. 2017), https://www.census.gov/
content/dam/Census/library/publications/2017/
demo/p60-260.pdf (last visited Feb. 13, 2021) . . . . . 23

viii
Cited Authorities
Page
E. Brantley et al., As Biden Administration
Begins Unwinding Them, Medicaid Work
Ex p e r i m e n t s R e m a i n Un r e a s o n a b l e ,
Unnecessary and Harmful, Health A ffairs
(Feb. 17, 2021), https://www.healthaffairs.
org/do/10.1377/hblog20210216.717854/full/
(last visited Feb. 17, 2021)  . . . . . . . . . . . . . . . . . passim
CMS , Appendi x to Eva luation Desig n
Guidance for 1115 Eligibility and Coverage
Demonstrations: Community Engagement,
https://www.medicaid.gov/medicaid/section1115-demo/downloads/evaluation-reports/
ce-evaluation-design-guidance-appendix.pdf
(last visited June 2019) . . . . . . . . . . . . . . . . . . . . . . . . 22
CMS, Evaluation Design Guidance for Section
1115 Eligibility and Coverage Demonstrations,
h t t p s : // w w w. m e d i c a i d . g o v / m e d i c a i d /
section-1115 -demo/downloads/evaluationreports/ce-evaluation-design-guidance.pdf
(last visited June 2019) . . . . . . . . . . . . . . . . . . . . . 22, 23
CMS , S t a t e Wa i v e r s L i s t , http s: // w w w.
medicaid.gov/medicaid/section-1115-demo/
d e m o n s t r a t i o n - a n d - w a i v e r - l i s t / 8 2 5 51
(last visited Feb. 13, 2021)  . . . . . . . . . . . . . . . . . . . . . 32

ix
Cited Authorities
Page
Sher r y A . Gl ied, Ho w a Medi cai d Wo rk
Requirement Could Affect New Hampshire’s
Economy, The Commonwealth Fund (May 9,
2019), https://www.commonwealthfund.org/
blog/2019/how-medicaid-work-requirementcou ld - a f fe c t -ne w-h a mp sh i r e s - e conomy
(last visited Feb. 25, 2021) . . . . . . . . . . . . . . . . . . . . . 16
Benjamin Hardy, Study Says Medicaid Work
Requirement Increased Uninsured Rate for
Arkansas but did not Boost Employment,
A rk a nsa s T imes (June 19, 2019), https://
arktimes.com/arkansas-blog/2019/06/19/studysays-medicaid-work-requirement-increaseduninsured-rate-for-arkansans-but-did-notboost-employment (last visited Feb. 13, 2021) . . . . . . 3
Institute of M edicine , America’s Uninsured
Crisis: Consequences for Health and Health Care
(2009), https://www.ncbi.nlm.nih.gov/books/
NBK214966/ (last visited Feb. 13, 2021)  . . . . . . . . . 24
K aiser Family Foundation, Health Insurance
Coverage of the Total Population, (2016), https://
www.kff.org/other/state-indicator/total-popula
tion/?currentTimeframe=0&sortModel=%7B
%22colId%22:%22Location%22,%22sort%22:%
22asc%22%7D (last visited Feb. 13, 2021) . . . . . . . . 31

x
Cited Authorities
Page
K aiser Family Foundation, Health Insurance
Coverage of Adults 19–64 (2019), https://www.kff.
org/other/state-indicator/adults-19-64/?current
Timeframe=0&sortModel=%7B%22colId%22:
%22Location%22,%22sort%22:%22asc%22%7D
(last visited Feb.12, 2021)  . . . . . . . . . . . . . . . . . . . . . 24
K aiser Family Foundation, Sicker and Poorer:
The Consequences of Being Uninsured (Apr.
2002), https://www.kff.org/uninsured/report/
sicker-and-poorer-the-consequences-of-being/
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . 26
Michael Karpman et al., Precarious Work
Schedules Could Jeopardize Access to Safety
Net Programs Targeted by Work Requirements,
Urban Institute (June 11, 2019), https://www.
urban.org/research/publication/precariouswork-schedules-could-jeopardize-access-safetynet-programs-targeted-work-requirements
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . 15
Leighton Ku & Erin Brantley, Medicaid Work
Requirements in Nine States Could Cause 600,000
to 800,000 Adults to Lose Medicaid Coverage,
T he C ommonwealth F und (June 21, 2019),
https://www.commonwealthfund.org/blog/2019/
medicaid-work-requirements-nine-states-couldcause-600000-800000-adults-lose-coverage
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . 25, 30

xi
Cited Authorities
Page
Leighton Ku et al., Medicaid Work Requirements:
Will They Help the Unemployed Gain Jobs or
Improve Health?, The Commonwealth Fund (Nov.
6, 2018), https://www.commonwealthfund.org/
publications/issue-briefs/2018/nov/medicaidwork-requirements-will-they-help-jobs-health
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . 15, 18
Letter from Andrea J. Cassart, CMS Division
of Medicaid Expansion Demonstrations to
Dawn Stehle, Arkansas Medicaid Director
(Nov. 8, 2018), https://w w w.medicaid.gov/
Medicaid-CHIP-Program-Information/ByTopics/ Waivers/1115/downloads/ar/HealthCare-Independence-Program-Private-Option/
ar-works-feedback-eval-dsgn-20181101.pdf
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . . 5
Letter from Olivia Golden, Ass. Secretary
for Children and Families & Nancy–Ann
Min DeParle, Administrator, Health Care
Financing Administration to State Medicaid
Directors and TANF Administrators (June
5, 1998), https://www.medicaid.gov/FederalPolicy-Guidance/downloads/smd060598.pdf
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . 12

xii
Cited Authorities
Page
Letter from Elizabeth Richter, CMS Acting
Administrator to Lori Shibinette, New Hampshire
Commissioner, Department of Health and Human
Services (Feb. 12, 2021), https://www.medicaid.
gov/medicaid/section-1115-demonstrations/
downloads/nh-granite-advantage-health-careprogram-cms-ltr-state-demo-02122021.pdf
(last visited Feb. 12, 2021)  . . . . . . . . . . . . . . . . . . . . . . 2
Letter from Elizabeth Richter, CMS Acting
Administrator to Dawn Stehle, Arkansas
Medicaid Director (Feb. 12, 2021), https://
w w w. m e d i c a i d . g o v/ m e d i c a i d /s e c t i o n 1115 - de mon s t r at ion s /do w n lo a d s /a r works- cms-ltr-state- demo - 02122021.pdf
(last visited Feb. 12, 2021)  . . . . . . . . . . . . . . . . . . . . . . 2
Letter from Andrew M. Slavitt, CMS Acting
Administrator to Thomas Betlach, Director,
A rizona Health Care Cost Containment
System (Sept. 30, 2016), https://www.medicaid.
gov/Medicaid-CHIP-Program-Information/
By-Topics/Waivers/1115/downloads/az/HealthCare-Cost-Containment-System/az-hccc-demoext-09302016.pdf (last visited Feb. 12, 2021) . . . . . . 13

xiii
Cited Authorities
Page
Lett er f rom Pen ny T hompson, MACPAC
Chair, to Alex Azar II, Secretary of HHS
(Nov. 8, 2018), https://w w w.macpac.gov/
w p - cont ent /uploa ds / 2 018 / 11 / M ACPAC l e t t e r - t o - H H S - S e c r e t a r y-R e g a r d i n g Work-Requirements-Implementation.pdf
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . 31
Letter from Vikki Wachino, Director, Center
for Medicaid & CHIP Services to Jeffrey
A. Meyers, Commissioner, New Hampshire
Dept. of HHS (Nov. 1, 2016), https://www.
medicaid.gov/ Medicaid- CHIP-Prog ramI n fo r m a t i on / B y-To p i c s / Wa i ve r s / 1115 /
downloads/nh/health-protection-program/
nh-health-protection-program-premiuma s s i s t a n c e - c m s - r e s p o n s e -1 10 1 16 . p d f
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . 13
Medicaid and CHIP Payment and Access Commission,
Work as a Condition of Medicaid Eligibility: Key
Take–Aways from TANF (Oct. 2017), https://
www.macpac.gov/wp-content/uploads/2017/10/
Wo r k- a s - a - C o n d i t i o n - o f - M e d i c a i d Eligibility-Key-Take-Aways-from-TANF.pdf
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . 27

xiv
Cited Authorities
Page
Bethany Maylone & Benjamin D. Sommers,
Evidence from the Private Option: The Arkansas
Experience, The Commonwealth Fund (Feb.
2017), https://www.commonwealthfund.org/
sites/default/files/documents/___media_files_
publications_issue_brief_ 2017_feb_1932_
maylone_private_option_arkansas_ib_v2.pdf
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . 24
MaryBeth Musumeci & Julia Zur, Medicaid
Enrollees and Work Requirements: Lessons
from the TANF Experience, K aiser Family
Foundation (Aug. 2017), https://www.kff.org/
medicaid /issue-brief/medicaid-enrolleesand-work-requirements-lessons-from-thetanf-experience/ (last visited Feb. 13, 2021)  . . . . . . 24
President’s Special Message to the Congress
on Public Welfare Programs (Feb. 1, 1962),
https://w w w.jf klibrary.org /asset-viewer/
archives/JFK POF/050/JFK POF- 050 - 006
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . . 9
Recent Case: Ninth Circuit Holds Statutory Waivers
for Welfare Experiments Subject to Judicial
Review, 108 Harv. L. Rev. 1208 (1995) . . . . . . . . . . . 18

xv
Cited Authorities
Page
David Ramsey, Arkansas DHS wants Work
Incentive for Medicaid Expansion Plan,
M agnoli a R eporter .C om (Feb. 20, 2021),
http://www.magnoliareporter.com/news_and_
business/regional_news/article_85b9eca47 2 b1-11e b - b 6 6 5 - 6 3 4 b a b e e 3 8 9 5 . ht m l
(last visited Feb. 22, 2021) . . . . . . . . . . . . . . . . . . . . . . 2
Sara Rosenbaum et al., Community Health Center
Financing: The Role of Medicaid and Section
330 Grant Funding Explained, K aiser Family
Foundation (Mar. 26, 2019), https://www.kff.
org/report-section/community-health-centerfinancing-the-role-of-medicaid-and-section330-grant-funding-explained-issue-brief-9291/
(last visited Feb. 13, 2021)  . . . . . . . . . . . . . . . . . . . . . 25
Sara Rosenbaum et al., The Trump Administration’s
Deeply Flawed Assumptions that Underlie its
Medicaid Compelled Work Experiments, Geo.
Wash. Health Pol’y & Mgm’t M atters (Feb.
8, 2021), http://gwhpmmatters.com/trumpadministrations-deeply-flawed-assumptionsu nderl ie -it s -med ic a id- comp el led-workexperiments (last visited Feb. 14, 2021)  . . . . . . 16, 31
Harald Schmidt et al., Physicians and Medicaid
Work Requirements: Variability in Primary
Care Physician Response to Patient Exemption
Requests, SSRN (Feb. 12, 2021), https://papers.
ssrn.com/sol3/papers.cfm?abstract_id=3784964
(last visited Feb. 15, 2021)  . . . . . . . . . . . . . . . . . . . . .  17

xvi
Cited Authorities
Page
Benjamin D. Sommers et al., Medicaid Work
Requirem ents in Arkansa s: Two –Year
Impacts on Coverage, Employment, and
Af fordability of Care, H e a lt h A ffa i r s
(Sept. 2020), https://w w w.healthaffairs.
org /doi /pd f / 10.137 7/ h lt ha f f. 2 0 2 0.0 0 5 3 8
(last visited Feb. 12, 2021)  . . . . . . . . . . . . . . . . . . . 3, 31
Benja m i n D. S om me r s e t a l ., Me di c ai d
Work Requirements – Results from the
First Year in Arkansas, T h e New E ng .
J. M ed. (June 19, 2019), https://www.nejm.
o r g /d o i / f u l l / 10 . 10 5 6 / N E J M s r1 9 0 17 7 2
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . . 3
Alexander Somodevilla et al., How Far Do Section
1115 Medicaid Experiments Designed to
Restrict Eligibility and Enrollment Veer From
the Norm? A 25-Year Perspective, Geo. Wash.
Health Pol’y & Mgm’t Matters (June 13, 2019),
http://gwhpmmatters.com/blog-how-far-dosection-1115-medicaid-experiments-designedrestr ict - elig ibility-and- enrollment -veer
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . 12
S o c i a l S e c u r i t y A dm i n i s t r a t ion , S o c i a l
Security H istory : K ennedy ’s S tatements
on S ocial Security (Feb. 20, 1961), https://
w w w. s s a . g o v / h i s t o r y / j f k s t m t s . h t m l
(last visited Feb. 12, 2021)  . . . . . . . . . . . . . . . . . . . . . . 9

xvii
Cited Authorities
Page
U.S. Dep’t of Health, Educ. & Welfare, Handbook
of Public Assistance Administration, H.T. No. 4,
pt. IV, § 8421 (1963) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
U.S. Dep’t of Health, Educ. & Welfare, Handbook of
Public Assistance Administration, H.T. No. 109,
pt. IV, § 8432 (Feb. 17, 1967) . . . . . . . . . . . . . . . . . . . 11
U.S. Dept. of Health & Human Servs., “Dear
Governor” letter from Thomas E. Price, Secretary
of HHS & Seema Verma, CMS Administrator
(Mar. 14, 2017), https://www.hhs.gov/sites/
default/files/sec-price-admin-verma-ltr.pdf
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . . 5
U.S. Dept. of Health & Human Servs., Health
R esources a nd S ervices A dministration,
B u r e au of P r i m a r y H e a lt hc a r e , 2 017
Health Center Data: Arkansas Data, New
Hampshire Data (2018), https://bphc.hrsa.
gov/datarepor ting /repor ting /index.html
(last visited Feb. 13, 2021)  . . . . . . . . . . . . . . . . . . . . . 26
U.S. Dept. of Health & Human Servs., Office of
the A ssistant Secretary for Planning and
Evaluation, Trends in the U.S. Uninsured
Population 2010–2020 (Feb. 11, 2021), https://aspe.
hhs.gov/system/files/pdf/265041/trends-in-theus-uninsured.pdf (last visited Feb. 15, 2021)  . . . . . 24

xviii
Cited Authorities
Page
U.S. Dept. of Labor, Bureau of Labor Statistics,
D a t a b a s e s , Ta b l e s & C a l c u l a t o r s b y
Subject (Table: 2018 Unemployment New
Hampshire Data), https://www.bls.gov/lau/
(last visited Feb. 13, 2021)  . . . . . . . . . . . . . . . . . . . . . 15
U.S. Gov’t Accountability Office, GAO–19–315,
Medicaid Demonstrations: Approvals of Major
Changes Need Increased Transparency (Apr.
2019), https://www.gao.gov/assets/700/698608.pdf
(last visited Feb. 13, 2021) . . . . . . . . . . . . . . . . . . . . . 19
U.S. Gov’t Accountability Office, GAO–18–220,
M edica id D emonstr ations : E va luations
Yielded L imited R esults , Underscoring
Need for C h a nges to F eder a l P olicies
a nd P rocedures (Feb. 20, 2018), https://
w w w. g a o . g o v / a s s e t s / 6 9 0 / 6 8 9 5 0 6 . p d f
(last visited Feb. 12, 2021) . . . . . . . . . . . . . . . . . . . . . 20
Lucy A. Williams, The Abuse of Section 1115 Waivers:
Welfare Reform in Search of a Standard,
12 Yale L. & Pol’y Rev. 1 (1994) . . . . . . . . . . . . .  10, 11
Sidney D. Watson, Out of the Blackbox and
into the Light: Using Section 1115 Medicaid
Waivers to Implement the Affordable Care
Act’s Medicaid Expansion, 15 Yale J. Health
Pol’y L. & Ethics 213, 227 (Winter 2015) . . . . . . . . 13

xix
GLOSSARY OF ABBREVIATIONS
AND ACRONYMS
Centers for Medicare and Medicaid Services . . . . . . CMS
Medicaid and CHIP Payment and Access
Commission . . . . . . . . . . . . . . . . . . . . . . . . . .  MACPAC
Patient Protection and Affordable Care Act . . . . . . . ACA
Social Security Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . SSA
State Medicaid Directors Letter . . . . . . . . . . . . . . SMDL
U.S. Department of Health and Human Services . . HHS
U.S. Government Accountability Office . . . . . . . . . . . GAO

1
INTEREST OF AMICI CURIAE
The Deans, Chairs, and Scholars are researchers
and academics who are experts in the fields of health law,
public health and health care policy and research, and
national health reform. They seek to inform this Court
about the history of Section 1115 of the Social Security Act,
42 U.S.C. § 1315, and the essential elements of Medicaid
demonstration evaluation. Federal Petitioners’ use of
demonstration authority to allow States to impose work
or community engagement requirements on Medicaid
beneficiaries is inconsistent with the Medicaid program,
the Social Security Act, Section 1115 authority and its
purpose, Congressional intent, and the historical use
of such demonstration authority, rendering Petitioners’
actions contrary to federal law.1
The full list of amici curiae Deans, Chairs and
Scholars is printed in an appendix to this brief.

1. Pursuant to Supreme Court Rule 37.6, amici certify that no
party or counsel for a party authored this brief in whole or in part,
and no party other than amici or their counsel contributed money
intended to fund the preparation or submission of the brief. The
parties have consented to the filing of this brief.

2
INTRODUCTION
Congress enacted the Medicaid program, Title XIX
of the Social Security Act (“SSA”), to provide medical
assistance to people whose income and resources are
insufficient to pay the cost of necessary care. 42 U.S.C.
§ 1396–1. Despite this clear mandate, the U.S. Department
of Health and Human Services’ (“HHS”) Centers for
Medicare and Medicaid Services (“CMS”) (collectively
“Petitioners”) allowed Arkansas and New Hampshire
to make “community engagement” through compelled
work a condition for Medicaid eligibility. In doing so,
Petitioners relied on special experimental authority
conferred on the HHS Secretary under § 1115 of the
Social Security Act. These consolidated matters now
before this Court challenge the Court of Appeals’ well–
reasoned ruling that authorization of the demonstrations
at issue was arbitrary and capricious, and therefore
unlawful. CMS has notified the States of Arkansas
and New Hampshire that “…allowing work and other
community engagement requirements to take effect in
New Hampshire [and Arkansas] would not promote the
objectives of the Medicaid program.” See Letter from
Elizabeth Richter, CMS Acting Administrator to Lori
Shibinette, Commissioner, New Hampshire Department
of Health and Human Services (Feb. 12, 2021); Letter from
Elizabeth Richter, CMS Acting Administrator to Dawn
Stehle, Arkansas Medicaid Director (Feb. 12, 2021). 2 This
Court should affirm.
2 . Repor t edly, the A rkansas Depa r tment of Human
Services “will not request a continuation of its controversial ‘work
requirements’ policy….” David Ramsey, Arkansas DHS wants Work
Incentive for Medicaid Expansion Plan, M agnolia Reporter.Com
(Feb. 20, 2021).

3
The Arkansas and New Hampshire demonstrations
reduce Medicaid coverage and create barriers to eligibility.
For example, Arkansas launched its demonstration in June
2018 and by March 2019, when the District Court halted
it, over 18,000 Arkansans had lost coverage, despite the
fact that over ninety–six percent of those targeted by the
policy appeared either to meet the work requirements
or qualify for an exemption. Independent analysis
documented that the uninsured rate for the initial work
requirements group (ages 30–49) increased seven percent
and Medicaid coverage decreased by seven percent
compared to working age beneficiaries not included in
the initial experimental wave. See Benjamin D. Sommers
et al., Medicaid Work Requirements – Results from the
First Year in Arkansas, The New Eng. J. Med. (June
19, 2019); Benjamin Hardy, Study says Medicaid Work
Requirement Increased Uninsured Rate for Arkansas
but did not boost Employment, A rkansas Times (June
19, 2019). Further, independent analysis found that the
Arkansas demonstration did not lead to a significant
change in employment a year thereafter. See Benjamin
D. Sommers et al., Medicaid Work Requirements in
Arkansas: Two–Year Impacts on Coverage, Employment,
and Affordability of Care, Health A ffairs (Sept. 2020).
Section 1902 of the SSA sets forth detailed conditions
of State participation in Medicaid. See 42 U.S.C. § 1396a.
Longstanding decisions hold that while States have
options to expand eligibility and coverage, they cannot
impose eligibility or coverage restrictions not authorized
by law. See T.H. v. Jones, 425 F.Supp. 873, 877 (D. Utah
1975), aff’d sub nom. Jones v. T.H., 425 U.S. 986 (1976)
(invalidating Utah’s parental consent requirements for
Medicaid family planning services); Comacho v. Tex.

4
Workforce Comm’n, 408 F.3d 229, 235 (5th Cir. 2005)
(“Texas cannot add additional requirements for Medicaid
eligibility.”); Edward C. Liu & Jennifer A. Staman, Cong.
Research Serv., R44802, Judicial Review of Medicaid
Work Requirements Under Section 1115 Demonstrations
(Mar. 28, 2017) at 3 n.17.
Section 1115 of the SSA authorizes the Secretary to
modify certain State plan requirements under § 1902
“[i]n the case of any experimental, pilot, or demonstration
project which, in the judgment of the Secretary, is likely
to assist in promoting the objectives of…[Medicaid].” 42
U.S.C. § 1315(a)(1). Medicaid’s core statutory objective is
provision of medical assistance to eligible persons. 42 U.S.C.
§ 1396–1. Yet Petitioners abused this unique experimental
authority and approved the Arkansas and New Hampshire
demonstrations by ignoring the fundamental research
norms on which § 1115 rests. Contrary to basic research
principles, petitioners disregarded voluminous evidence
– much of it flowing from the government’s own research
– regarding the impact of compelled work experiments
on the health and well–being of public benefit recipients.
See E. Brantley et al., As Biden Administration Begins
Unwinding Them, Medicaid Work Experiments Remain
Unreasonable, Unnecessary and Harmful, H ealth
A ffairs (Feb. 17, 2021). Petitioners ignored the critical
flaws in their experimental design along with a wealth of
research pointing to major, negative impact on enrollment
and coverage. Through administrative fiat, and without
statutory authority or notice–and–comment rulemaking,
Petitioners reversed their long–standing position that
work requirements do not promote the objectives of
the Medicaid program – an ideological position made
abundantly clear nearly a year prior to approval of the

5
initial experiments that demonstrated the depth of the
administration’s hostility to insurance coverage for poor
adults. See U.S. Dept. of Health & Human Servs., “Dear
Governor” letter from Thomas E. Price, Secretary of
HHS & Seema Verma, CMS Administrator (Mar. 14,
2017) (hereinafter, “Dear Governor Letter”). Ark. App.
195–198 (Exh. 97); N.H. App. 68–70 (Exh. 3). 3
Petitioners disregarded the research and evaluation
principles that undergird § 1115. Arkansas implemented
its “demonstration,” and months of erroneous coverage
termination ensued with no evaluation in place. See
Letter from A ndrea J. Cassart, CMS Division of
Medicaid Expansion Demonstrations to Dawn Stehle,
Arkansas Medicaid Director (Nov. 8, 2018) (asking
Arkansas, in the midst of implementation, to revise the
unapproved evaluation design “on areas that should
be better articulated or strengthened”). Thousands of
beneficiaries were put directly in harm’s way without the
safeguards of a sound experiment – a hypothesis based
in evidence, a reasonable research design, and careful,
timely evaluation to ensure that impact can be measured
and, most importantly, that the experiment can be halted
before it threatens health and well–being.
Section 1115 is not a mechanism for refashioning
Medicaid in ways that federal officials might prefer but
that lack statutory basis. This law is a unique grant of
power from Congress to test, measure, and evaluate the
3. “Ark. App.” refers to the appendix in Gresham v. Azar, 363
F.Supp.3d 165 (D.D.C. 2019), available at: 1:18-cv-01900-JEB (Mar. 6,
2019) (Doc. 53 and attachments). “N.H. App.” refers to the appendix
in Philbrick v. Azar, 397 F.Supp.3d 11 (D.D.C. 2019), available at:
1:19-cv-00773-JEB (July 3, 2019) (Doc. 41 and attachments).

6
impact of policy modifications that have the potential
to promote Medicaid objectives. As discussed below,
Petitioners’ use of § 1115 is contrary to the terms, purpose,
and history of this special federal experimental authority.
Hence, Petitioners’ approval of these demonstrations was
arbitrary, capricious, and contrary to law. Consequently,
amici urge this Court to affirm.
SUMMARY OF THE ARGUMENT
I. In 1962, the Kennedy Administration asked
Congress to pass legislation allowing States to implement
demonstration projects without having to comply with all
requirements of the Social Security Act. In enacting that
legislation, Congress envisioned demonstrations of limited
scope and geographic impact that would serve as narrow,
beneficial research options.
II. Early demonstrations adhered to Congress’s
intent. In implementing § 1115, the Department of Health,
Education, and Welfare clarified that its purpose was
to improve the administration of assistance and related
services designed to help needy persons achieve self–
support, self–care, or to maintain and strengthen family
life. After Congress authorized the Medicaid program in
1965 and subsequently extended demonstration authority
to Medicaid, Department guidance continued to affirm
that demonstration projects should focus on program
improvement.
III. Following Medicaid’s enactment, Congress took
additional steps to ensure § 1115 experiments adhere to
research norms and promote program purpose. For over
45 years, Medicaid demonstrations have assessed new

7
approaches to deliver health care or expand beneficiary
services and supports. Throughout, HHS has consistently
viewed Medicaid eligibility as a benefit to be distinct from
programs whose express purpose is to promote work.
I V. Contrar y to § 1115’s ter ms and purpose,
Petitioners used demonstration projects to circumvent the
Affordable Care Act’s expansion of Medicaid. Since the
early Trump administration, Petitioners embraced a plan
to reverse the expansion population’s Medicaid eligibility,
which they characterized as “a clear departure from
the core, historical mission of the [Medicaid] program.”
In approving the A rkansas and New Hampshire
demonstrations, Petitioners offered no explanation of how
eliminating insurance furthers financial sustainability,
ignored evidence of past failures and widespread adverse
impact, and failed to consider the consequences of driving
up uninsured rates on States’ budgets as Medicaid
coverage declined under the weight of the experiment.
V. The demonstrations at issue are unlawful because
Petitioners have grossly exceeded the experimental
authority set forth in § 1115. Petitioners acted contrary to
sound research principles and instead pursued a policy of
“experiment first and evaluate later,” ignored voluminous
comments in the record that warned of the demonstrations’
likely impact and allowed the Arkansas experiment to
proceed without an independent, rigorous evaluation.
Furthermore, at least in Arkansas, the lack of an evidence–
based experimental design led to confusion, unreliable
research findings, and hardship to Medicaid beneficiaries.
VI. Section 1115 contemplates that States file
experimental applications accompanied by costs and

8
coverage projections, and that States and Petitioners
meet other requirements to ensure transparency. The
GAO deemed CMS inconsistent in its compliance with
transparency and other § 1115 requirements. CMS’ § 1115
guidance contradicted Petitioners’ approval of Arkansas’s
demonstration, which was allowed to proceed without an
evaluation design, beneficiary surveys or other essential
research safeguards.
VII.A. Petitioners’ improper use of § 1115 jeopardized
the substantial healthcare coverage and access gains
of Medicaid expansion. Given well–documented similar
effects following implementation of work requirements
in SNAP and other social programs, Petitioners were
thoroughly apprised of the substantial negative impacts
that would result from approving these demonstrations.
VII.B. Experiments to reduce Medicaid coverage
contradict voluminous research demonstrating the
adverse effects of denying low–income people access to
health insurance. The record contains extensive opposition
to CMS’ “community engagement” policy as an eligibility
condition, based on multiple evaluations showing the
disastrous impact of work requirements in TANF and
other social programs. CMS was also warned repeatedly
regarding extensive research on the adverse impact
of coverage lock–outs such as those contemplated by
Arkansas’s demonstration. Furthermore, federal officials
disregarded ample research on the extent to which most
adult Medicaid beneficiaries already work or are limited
in their ability to do so.
VII.C. Petitioners justified their approval of these
demonstrations by claiming, without explanation, that
work requirements create “appropriate” incentives for

9
beneficiaries to gain employment or help individuals and
families attain or retain capability for independence or
self–care. To the contrary, there is no evidence suggesting
that depriving people of Medicaid will create greater
levels of employer–sponsored insurance.
ARGUMENT
I.

Congress Enacted § 1115 to Permit States to Test
New Approaches to Expand Access, Provide Better
Services, and Strengthen Social Programs.

In 1962, the Kennedy Administration asked Congress
to enact legislation authorizing “[d]emonstration projects
that states could undertake without having to meet all
the conditions of the federal [Social Security] act.” Public
Welfare Amendments of 1962, Pub. L. 87–543, § 122, 76
Stat. 172, 192 (1962); see also S. Rep. No. 1589, at 1 (1962),
reprinted in 1962 U.S.C.C.A.N. 1947. The President
identified “needed improvements” in safety net programs
including liberalization of eligibility requirements and
benefit rules. See Social Security A dministration, Social
Security History: K ennedy ’s Statements on S ocial
Security (Feb. 20, 1961). This additional authority would
help, not penalize, the poor: “[c]ommunities which have –
for whatever motives – attempted to save money through
ruthless and arbitrary cutbacks in their welfare rolls
have found their efforts to little avail. The root problems
remained….” President’s Special Message to the Congress
on Public Welfare Programs (Feb. 1, 1962).
Explaining that demonstration authority would
enable states “to improve the techniques of administering
assistance and the related rehabilitative service under the

10
assistance titles,” the Senate envisioned demonstrations
of limited scope and limited geographic impact, and
disfavored duplication of demonstration projects. S. Rep.
No. 1589, supra, at 1943, 1961. Furthermore, “[a]t the
committee hearing, no witness suggested – nor did the
Finance Committee ever intimate – that section 1115
was to be used to reduce benefits by varying eligibility
criteria….In short…Congress and the Administration
intended this section to be a narrow, technical, and
beneficent research option.” Lucy A. Williams, The Abuse
of Section 1115 Waivers: Welfare Reform in Search of a
Standard, 12 Yale L. & Pol’y Rev. 1, 12, 13 (1994).
II. Early § 1115 Demonstrations Heeded Congressional
Intent that Experiments Strengthen Medicaid and
other Social Programs.
In implementing § 1115, the agency clarified that
its purpose was to “develop and improve the methods
and techniques of administering assistance and related
services designed to help needy persons achieve self–
support or self–care or to maintain and strengthen family
life.” U.S. Dep’t of Health, Educ. & Welfare, Handbook
of Public A ssistance A dministration, H.T. No. 4, pt. IV,
§ 8421 (1963). Early on, demonstrations were intended to
augment and strengthen services, not eliminate them.
Williams, The Abuse of Section 1115 Waivers at 14.
Congress authorized the Medicaid program with
enactment of Title XIX of the Social Security Act in 1965,
42 U.S.C. § 1396 et seq., and extended demonstration
authority to Medicaid. See Social Security Amendments
of 1965, Pub. L. No. 89–97, sec. 121(c)(3), § 1115, 79 Stat.
352 (42 U.S.C. § 1315 (Supp. I 1965)). Subsequent 1967

11
Department policy reaffirmed that demonstrations ought
to strengthen programs by “provid[ing] assistance to
needy individuals who would not otherwise be eligible;
increas[ing] the level of payments; provid[ing] social
services not presently available…; [and] experiment[ing]
with new patterns and types of medical care….” U.S.
Dep’t of Health, Educ. & Welfare, Handbook of Public
A ssistance A dministration, H.T. No. 109, pt. IV, § 8432
(Feb. 17, 1967) (emphasis added) (cited in Williams, supra,
at 14, n.29); see also S. Rep. No. 744 (1967), reprinted in
1967 U.S.C.C.A.N. 2834, 2863 (appropriating additional
funds for § 1115 projects “to develop demonstrations in
improved methods of providing service to recipients or in
improved methods of administration”).
III. Since 1965 Cong ress Has Added Impor tant
Protections to Ensure Demonstrations Promote
Medicaid’s Purpose.
Over decades, Medicaid demonstrations have tested
new strategies for delivering health care or expand
beneficiary services. Congress has taken additional steps
to ensure § 1115 experiments promote Medicaid’s purpose.
In 1982, Congress added § 1916 to the SSA to restrict
§ 1115 waivers that compel beneficiary participation in
premium or cost-sharing demonstrations. Tax Equity
and Fiscal Responsibility Act, Pub. L. 97–248, Title I,
Subtitle B, § 131(b), 96 Stat. 367 (1982); 42 U.S.C. § 1396o.
Congress again amended § 1115 in 2010 to require that,
prior to approving demonstrations, the Secretary provide
public notice and comment at both the state and federal
levels and ensure that demonstrations comply with federal
Medicaid law. See Patient Protection and Affordable Care
Act, Pub. L. 111–148, § 2601(b)(2), § 10201(i), 124 Stat. 119,
922 (2010) (the “ACA”); 42 U.S.C. § 1315(d)(2).

12
No previous Administration has approved Medicaid
demonstrations whose express purpose is to deprive people
of eligibility or coverage, and CMS has historically rejected
such proposals. Indeed, over the past quarter century, the
Secretary has permitted experiments aimed broadly at
broadening eligibility, testing alternative approaches to
eligibility expansion, improving coverage, and introducing
health care innovations. Alexander Somodevilla et al., How
Far Do Section 1115 Medicaid Experiments Designed
to Restrict Eligibility and Enrollment Veer From the
Norm? A 25-Year Perspective, Geo. Wash. Health Pol’y
& Mgm’t M atters (June 13, 2019). The text and history
of § 1115 show that this experimental authority is not a
blank check to rewrite law by stripping eligibility from
beneficiaries; it is unlikely “that Congress would enact
such comprehensive [Social Security Act] regulations,
frame them in mandatory language, require the Secretary
to enforce them, and then enact a statute [§ 1115] allowing
states to evade these requirements with little or no federal
agency review.” Beno v. Shalala, 30 F.3d 1057, 1068–69
(9th Cir, 1994); see also Newton–Nations v. Betlach, 660
F.3d 370 (9th Cir. 2011).
The history of welfare reform legislation reveals that
HHS has consistently viewed Medicaid eligibility as a
benefit to be “decoupled” from programs whose express
purpose is to promote work, such as Temporary Assistance
for Needy Families (“TANF”), which statutorily ties
benefits to work activities. See Letter from Olivia Golden,
Assist. Secretary for Children and Families & Nancy–Ann
Min DeParle, Administrator, Health Care Financing
Administration to State Medicaid Directors and TANF
Administrators (June 5, 1998). Historically, CMS has
repeatedly opposed work requirements. See Medicaid

13
at 50: Hearing Before the H. Comm. on Energy and
Commerce, Subcomm. on Health, 114th Cong. 7 (July 8,
2015) (responses to additional questions for the record of
Vikki Wachino, CMS Deputy Administrator and Director
for the Center for Medicaid and CHIP Services) (“the
Secretary does not have the authority to permit a state
to require Medicaid beneficiaries to work or receive job
training because that is not an objective of [Medicaid]”);
see also Letter from Vikki Wachino to Jeffrey A. Meyers,
Commissioner, New Hampshire Dept. of HHS (Nov. 1,
2016) (denying State’s request for permission to implement
Medicaid work requirements because they “undermine
access, efficiency, and quality of care provided to Medicaid
beneficiaries and do not support the objectives of the
Medicaid program”); Letter from Andrew M. Slavitt,
CMS Acting Administrator to Thomas Betlach, Director,
Arizona Health Care Cost Containment System (Sept. 30,
2016); Sidney D. Watson, Out of the Blackbox and into the
Light: Using Section 1115 Medicaid Waivers to Implement
the Affordable Care Act’s Medicaid Expansion, 15 Yale
J. Health Pol’y L. & Ethics 213, 227 (Winter 2015) (“The
Secretary has no Section 1115 authority to allow a work
requirement or work incentive.”).
As noted, CMS has now returned to its consistently
held view. See Letters from Elizabeth Richter, CMS Acting
Administrator to Arkansas and New Hampshire (Feb. 12,
2021), respectively, supra. Petitioners’ now disavowed
change of heart that underlay these demonstrations
deserves little deference: “[a]n agency interpretation of a
relevant provision which conflicts with the agency’s earlier
interpretation is ‘entitled to considerably less deference’
than a consistently held agency view.’” INS v. Cardoza–
Fonseca, 480 U.S. 421, 446 n.30 (1987).

14
IV. Petitioners Cannot Use § 1115 as a Shortcut for
Reversing Expansion.
As Petitioners acknowledge, the two experiments at
issue in these matters concern the “Medicaid expansion,”
which secured medical assistance for previously ineligible
low–income, working–age adults. Federal Pet’rs’ Br. at 15,
31. The ACA extended medical assistance to “the entire
nonelderly population with income below 133 percent of
the poverty level.” Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519, 583 (2012); see 42 U.S.C. § 1396a(a)(10)(A)
(i)(VIII) (extending Medicaid coverage effective Jan. 1,
2014 to the “expansion population”). States may choose
not to cover the ACA expansion population. Nat’l Fed’n of
Indep. Bus., 567 U.S. at 587. However, States that decide
to provide coverage must afford the expansion group
“full benefits,” which the statute defines as “medical
assistance…that is not less in amount, duration, or scope,
or is determined by the Secretary to be substantially
equivalent, to the medical assistance available for [other]
individual[s] [covered under the Act].” 42 U.S.C. § 1396d(y)
(2)(B). The federal government covers ninety percent
of a State’s costs of providing medical assistance to the
expansion group. Id. § (y)(1)(D), (E).
Early in the Trump administration, Petitioners
embraced a plan to roll back the expansion population’s
Medicaid eligibility, characterized as “a clear departure
from the core, historical mission of the [Medicaid]
program.” See Dear Governor Letter at 1. N.H. App.
68. CMS advanced its views in a January 2018 State
Medicaid Directors Letter (the “SMDL”) inviting
submission of “community engagement” demonstration

15
proposals containing a host of eligibility restrictions. See
Ark. App. 74–83; N.H. App. 57–66. Upending its long–
standing position that mandatory work requirements
do not promote Medicaid objectives, CMS made a policy
about–face without notice–and–comment. The letter also
promoted other coverage restrictions such as premiums,
“lock–out” periods that could bar coverage for months at a
time, and elimination of retroactive eligibility. The policy
expressly established an experimental design consisting
of a year–round, hours–per–week work requirement
despite evidence that fewer than one in six working–age
low income adults can satisfy this standard. Low–wage
workers, particularly those in retail, hospitality, or
transportation, are vulnerable to job insecurity and
precarious work schedules – a reality especially common
among low–wage workers who also depend on government
safety net programs. See Michael Karpman et al.,
Precarious Work Schedules Could Jeopardize Access to
Safety Net Programs Targeted by Work Requirements
1–2, Urba n I nstitute (June 11, 2019). Petitioners’
policy also sanctioned volunteer work without wages
or benefits and barred use of Medicaid experimental
funds to underwrite work supports such as training,
transportation, or child care. Petitioners encouraged this
model even though voluntary work programs have shown
no measurable success in boosting work, see Leighton
Ku et al., Medicaid Work Requirements: Will They Help
the Unemployed Gain Jobs or Improve Health?, T he
Commonwealth Fund (Nov. 6, 2018), and in the case of
New Hampshire, with no regard to the State’s extremely
low average unemployment rates (2.6 percent), even among
older adults (1.8 percent). See U.S. Dept. of Labor, Bureau
of Labor Statistics, Databases, Tables & Calculators by
Subject (Table: 2018 Unemployment New Hampshire

16
Data). Regardless, Petitioners remained silent as to
how unemployed beneficiaries should meet the 100–hour
monthly requirement or if there were any jobs available
in a virtually full–employment local economy.
Moreover, Petitioners offered no explanation of how
eliminating coverage for an eligibility group whose costs
qualify for a ninety percent federal contribution rate (42
U.S.C. §§ 1396d(y)(1)(D), (E))), while pushing up uninsured
rates, advances the goal of financial sustainability. Nor did
Petitioners weigh the consequences for New Hampshire
of such a loss of federal match, estimated at between $114
million and $174 million in 2020 alone, an impact of up
to eleven percent of the State’s budget. Sherry A. Glied,
How a Medicaid Work Requirement Could Affect New
Hampshire’s Economy, The Commonwealth Fund (May
9, 2019).
V. Petitioners’ Approvals of Eligibility Restriction
Experiments in Arkansas and New Hampshire
Violated Research Norms by Lacking A Basis in
Evidence and by Failing to Ensure States Conduct
Adequate Demonstration Evaluations.
Petitioners offered varying justifications for compelled
work experiments. Initially, they asserted, work would
improve health. Before this Court, they argue that
compelled work will promote access to private insurance,
in direct contravention of the fact that the two major
avenues to private insurance – Marketplace coverage and
employer plans – are closed to the working poor because
they lack sufficient income to qualify for Marketplace
subsidies and work in jobs that overwhelmingly offer no
employer health benefits. See Sara Rosenbaum et al., The

17
Trump Administration’s Deeply Flawed Assumptions
that Underlie its Medicaid Compelled Work Experiments,
Geo. Wash. Health Pol’y & Mgm’t Matters (Feb. 8, 2021).
Moreover, Petitioners’ exemption procedures, which could
have given a modicum of beneficiary protection against
the experiment’s harsh consequences, were so convoluted
that less than forty percent of all surveyed Arkansas
physicians in one study indicated they would assist the
most severely affected people seek exemption from work
requirements. See Harald Schmidt et al., Physicians and
Medicaid Work Requirements: Variability in Primary
Care Physician Response to Patient Exemption Requests,
SSRN (Feb. 12, 2021).
Contrary to all sound research norms, Petitioners
allowed A rkansas to proceed w ithout a r igorous
evaluation in place, pursuing a policy of “experiment
first and evaluate later” that made a mockery of § 1115’s
experimental authority and ignored the voluminous
comments in the record that warned of the design’s likely
impact. Petitioners permitted an experiment carrying
substantial risks for low–income adults, such as inflexible
work rules or forced volunteer work carrying virtually no
prospects of additional income or benefits, and exceedingly
confusing reporting obligations. Over 18,000 people
lost coverage in Arkansas with no government–funded
research to assess the impact. These substantive and
procedural flaws left the agency, States, and Congress
without objective evidence of the consequences of the
design on beneficiaries or what drove coverage loss –
precisely the result lawmakers sought to avoid through
the 2010 amendments.

18
Furthermore, the record is devoid of evidence showing
the methodological soundness of the experiment. See, e.g.,
Newton–Nations, 660 F.3d 370 (Medicaid) and Beno, 30
F.3d 1057 (Aid to Families with Dependent Children).
Neither the original solicitation nor the approvals
explained why it is methodologically sound to design work
experiments that contradict the lessons of past compelled
work demonstrations. Even as CMS refused to fund work
supports, it also disregarded evidence of the harms that
could befall low–wage or volunteer workers unable to
navigate a new maze of experimental requirements. See
Ku et al., Medicaid Work Requirements, supra; Brantley
et al., As Biden Administration Begins Unwinding Them,
Medicaid Work Experiments Remain Unreasonable,
Unnecessary and Harmful, supra.
In addition, § 1115 demonstrations must rest on
research norms to ensure that experimental projects
produce valuable information and facilitate “true research
data[,] and serve interests beyond state fiscal concerns.”
Recent Case: Ninth Circuit Holds Statutory Waivers
for Welfare Experiments Subject to Judicial Review,
108 H arv. L. Rev. 1208, 1212 (1995). “[T]he Secretary
must make at least some inquiry into the merits of the
experiment—she must determine that the project is
likely to yield useful information or demonstrate a novel
approach to program administration.” Beno, 30 F.3d at
1069. Moreover, “[t]he Secretary’s second obligation under
Beno is to ‘consider the impact of the state’s project on
the persons the Medicaid Act ‘was enacted to protect.’”
Newton–Nations, 660 F.3d at 381. At least in the case of
Arkansas, failure to produce a sound experimental design
led inevitably to confusion, contamination of research
findings, and additional hardship to more than 18,000
beneficiaries who lost Medicaid coverage.

19
Regulations issued in 2012 require that demonstrations
serve a legitimate experimental purpose. 42 C.F.R. Part
431, subpart G. These regulations require States to
submit for CMS approval detailed evaluation designs
of their demonstrations’ “key programmatic features,”
including testable hypotheses, valid designs, reliable
collection methods and approaches to minimize burdens
on beneficiaries. Id. at § 431.424; see also U.S. G ov ’t
Accountability Office (“GAO”), GAO–19–315, Medicaid
Demonstrations: A pprovals of M ajor Changes Need
Increased Transparency at 23, n.28 and accompanying
text (Apr. 2019) (hereinafter “Medicaid Demonstrations
– 2019 Report”) (“In the development of demonstration
evaluations, states are to include hypotheses that will
be tested through the demonstrations, which align with
the demonstration’s objectives or goals.”). Rather than
adhering to their own standards for ensuring reasonable
experimentation, Petitioners authorized States to proceed
without an approved evaluation design. Arkansas’s ran
for ten months, with no approved, operational evaluation
in place.
Petitioners would shield these deeply f lawed
demonstrations behind an insurmountable wall of
deference to the “agency’s predictive judgment.” See
Federal Pet’rs’ Br. at 26. Petitioners justify approving
work requirements on the ground that “[t]he purpose
of such experiments is…to test a hypothesis. And an
experiment can further the statute’s goals whether or
not it yields the results the agency anticipates–either by
validating a hypothesis that might lead to new innovations,
or by refuting a hypothesis, helping Congress and HHS
avoid mistaken policies.” Id. at 26; see also Ark. App. 6,
N.H. App. 11, 12.

20
But in the context of experimental authority,
predictive judgment is bound by fundamental research
principles. Petitioners misused and exceeded their
authority by ignoring the fundamental research tenet that
the assumptions underlying a hypothesis be reasonable
and that benefits outweigh risks. Their hypotheses were
swamped by a massive body of evidence documenting the
enormous likelihood of harm and they allowed a dangerous
experimental design to proceed in an evaluation–free
zone. Quality research rests on hypotheses based in
evidence, reasonable experimental design, and evaluation
of impact. Of course, Petitioners do not alert this Court
to the fact that the Arkansas demonstration proceeded
without an evaluation in place.
Petitioners also note that “[d]emonstration projects
are time–limited experiments, and even an unsuccessful
experiment can provide useful information that can
‘influence policy making at the State and Federal level,
by testing new approaches that can be models for
programmatic changes nationwide or in other States.’”
Federal Pet’rs’ Br. at 26. However, making an experiment
time–limited is not license to ignore the requirements
of a reasonable hypothesis and experimental design
demonstrating benefits that outweigh risks, and a sound
evaluation that ensures experimentation will stop in the
face of evidence of harm. No set of principles could be more
fundamental in an experiment that involves depriving the
poor of their essential means of health care. Time limits
were of no use in an evaluation–free experiment that
caused such enormous and immediate harm. See U.S.
G ov ’t Accountability Office, GAO–18–220, Medicaid
Demonstrations: Evaluations Yielded Limited Results,
Underscoring Need for Changes to Federal Policies

21
Procedures (Feb. 20, 2018) (citing Petitioners’ poor
record of § 1115 research oversight and failure to produce
evaluation results). Petitioners ignored their responsibility
to assess whether these demonstrations are “likely to
assist in promoting the objectives” of Medicaid, an express
statutory duty clearly not among those unreviewable,
limited “categories of administrative decisions that courts
traditionally have regarded as committed to agency
discretion.” Dep’t of Commerce v. New York, 139 S. Ct.
2551, 2568 (2019).
and

VI. Petitioners Consistently Sidestepped Evaluation
Principles Contained in Their Own § 1115 Guidance.
Section 1115 contemplates that States file experimental
applications accompanied by costs and coverage
projections. 42 U.S.C. § 1315(d)(2)(B)(ii). It is not enough
for States simply to report on the ongoing results of their
demonstrations, although reporting is a requirement.
Id. § 1315(d)(2)(D). Moreover, the statute provides that
“[t]he Secretary shall release an evaluation of each such
project not later than 1 year after the date of receipt of
the final [state] report.” Id. § 1315(e)(5). In other words,
§ 1115 demonstrations must be objectively evaluated for
their impact, in contrast with routine Medicaid program
administration. This obligation to assess coverage impact
and to evaluate results applies to new demonstrations
and to extensions or renewals as in Arkansas and New
Hampshire, though Petitioners did not comply with it.
Applications to extend existing demonstrations,
such as Arkansas’s and New Hampshire’s, must include
“[a]n evaluation report of the demonstration, inclusive
of evaluation activities and findings to date, plans for
evaluation activities during the extension period, and

22
if changes are requested, identification of research
hypotheses related to the changes and an evaluation
design for addressing the proposed revisions.” 42
C.F.R. § 431.412(c)(2)(vi). The GAO evaluated CMS’
compliance with this regulatory provision and noted
that CMS improperly deemed Arkansas’s application
to be “complete” despite lacking a revised evaluation
design plan and specifically, that Arkansas had offered
two new hypotheses that did not address “the waiver
for retroactive eligibility proposed in the application.”
GAO, Medicaid Demonstrations – 2019 Report at 23,
n.29 and accompanying text. Arkansas was allowed
to simply submit a slapdash amendment to its original
demonstration and Petitioners approved it in spite of it
lacking impact estimates, new hypotheses or an evaluation
design to test the added features. See Ark. App. 45–52
(XIV. Evaluation of the Demonstration) (referencing
only premium assistance; no hypotheses or evaluation
design to test work requirements or coverage lock–out
impacts).
More than a year after the initial § 1115 work
approvals and about nine months after the Arkansas
demonstration went live, CMS posted § 1115 online
resources on State evaluation and monitoring obligations.
See CMS, Evaluation Design Guidance for Section 1115
Eligibility and Coverage Demonstrations (hereinafter
“CMS 1115 Guidance”) and CMS, Appendix to Evaluation
Design Guidance for 1115 Eligibility and Coverage
Demonstrations: Community Engagement. N.H. App.
58–91 (Exh. 56 and 57).
CMS’ guidance “…encourage[d] states to procure
their evaluator to support the development of a robust

23
draft evaluation design for CMS review; ideally, states
should identify an evaluation team before implementation
to consult on implementation plans that support robust
research designs and plan early data collection.” CMS 1115
Guidance at 1 (emphasis added). N.H. App. 59. Moreover,
CMS stated that beneficiary surveys “are particularly
important data sources for community engagement
demonstration evaluations because states must track
beneficiaries after they separate from Medicaid to
understand employment, income, health status, and
coverage transitions over time.” N.H. App. 66. Yet CMS
did not require the State to prepare a robust pre–launch
evaluation design or to conduct beneficiary surveys from
the outset, and missed the opportunity to measure crucial
early impacts.
VII.

A.

Medicaid Expansion’s Remarkable Achievements
in Providing Medical Assistance to Uninsured
Adults Made the Impact of Imposing Work
Requirements, Coverage Lock– Outs and
Limited Retroactive Eligibility Even More
Catastrophic.
Expansion in Arkansas and New Hampshire
Achieved Dramatic Reductions in Total
Uninsured Adults.

Both States posted impressive achievements through
implementation of the Medicaid Expansion in 2014.
By the end of 2016, Arkansas’s expansion reduced the
State’s uninsured population by fifty percent. See Jessica
Barnett & Edward Berchick, Health Insurance Coverage
in the United States: 2016 Current Population Reports,
U.S. Census Bureau at 19 (September 2017). Likewise,
the number of uninsured adults aged 19 to 64 in New

24
Hampshire fell from sixteen percent to nine percent.
As a result, 55,900 fewer New Hampshire adults were
uninsured by 2019. See K aiser Fa mily Foundation,
Health Insurance Coverage of Adults 19-64 (2019). These
coverage gains meant better healthcare for people across
both States, whether poor or not, as communities with
high levels of uninsured persons lack critical services
even for insured people because of insufficient market
conditions essential to financing health care. See Institute
of Medicine , America’s Uninsured Crisis: Consequences
for Health and Health Care (2009) at 4.
In addition, extensive evaluation has shown the
Medicaid expansion’s success in achieving stable coverage
and more accessible health care. See U.S. Dept. of Health
& Human Servs., Office of the A ssistant Secretary for
Planning and Evaluation, Trends in the U.S. Uninsured
Population 2010–2020 (Feb. 11, 2021); Bethany Maylone &
Benjamin D. Sommers, Evidence from the Private Option:
The Arkansas Experience, The Commonwealth Fund
(Feb. 2017); Lara Antonisse et al., The Effects of Medicaid
Expansion under the ACA: Updated Findings from a
Literature Review, K aiser Family Foundation (Mar.
2018). Arkansas’s expansion reduced uninsured outpatient
hospital visits (45.7 percent reduction), emergency room
visits (38.8 percent reduction), and hospital admissions
(48.7 percent reduction) annually. See A rkansas Center
for H ea lt h I m prov em en t , Arkansas Health Care
Independence Program (“Private Option”) Final Report
(June 30, 2018) at i.
Petitioners’ improper use of § 1115 jeopardized these
healthcare coverage and access gains. While more than
18,000 individuals lost coverage during implementation
of A rkansas’s demonstration, see GAO, Medicaid

25
Demonstrations – 2019 Report at 22, it has been estimated
that, were nine States with approved compelled work
experiments allowed to proceed, an additional 589,000 to
811,000 beneficiaries would lose coverage. Losses of this
magnitude reflect between one–quarter and one–third of
the 2.5 million people who would become subject to the
experimental requirements and are linked only to the
experiment’s work requirements. Leighton Ku & Erin
Brantley, Medicaid Work Requirements in Nine States
Could Cause 600,000 to 800,000 Adults to Lose Medicaid
Coverage, The Commonwealth Fund (June 21, 2019).
Petitioners were fully aware of what their approvals
would trigger, given well–documented similar benefit losses
following implementation of SNAP work requirements.
Id.; see also Brantley et al., As Biden Administration
Begins Unwinding Them, Medicaid Work Experiments
Remain Unreasonable, Unnecessary and Harmful,
supra. Cognizant of these ravaging effects, Petitioners
instructed States to tell people who lose Medicaid
coverage due to implementation of these demonstrations
to seek care on an uninsured basis at community health
centers – a tacit admission of the absurdity of Petitioners’
claim that positive results would flow from experiments
that imperil Medicaid coverage. See Ark. App. 34 (Special
Terms & Conditions, ¶ 54.q); N.H. App. 33 (STCs, ¶ 24.u).4
4. Community health centers, major Medicaid providers
in Arkansas and New Hampshire, treat thousands of uninsured
patients. With basic grant funding under Section 330 of the Public
Health Service Act, 42 U.S.C. § 254b (“Section 330”), health centers
are required to provide care to medically underserved populations
regardless of ability to pay. Section 330 grants represent less than
twenty percent of health centers’ operating budgets, thus they
depend heavily on Medicaid to fund the services they provide. See
Sara Rosenbaum et al., Community Health Center Financing: The

26
B. Extensive Commentary in the Administrative
Record Made Clear the Risks Created by Work
Requirements and Coverage Restrictions.
Experiments to reduce Medicaid coverage fly in the
face of extensive research demonstrating the adverse
effects of denying low–income people access to health
insurance. See, e.g., K aiser Family Foundation, Sicker
and Poorer: The Consequences of Being Uninsured
(Apr. 2002). Yet Petitioners simply ignored or provided
unresponsive answers to extensive public comments
presenting well–supported research opposing their
assumptions in the SMDL and their demonstration
approvals. Repeated comments in the record underscore
how these demonstrations would harm beneficiaries while
doing little to improve incomes or access to employer
insurance or to promote better health outcomes. CMS
responded that “[w]e believe that the community
engagement requirements create appropriate incentives
for beneficiaries to gain employment,” without citing
specific evidence to explain how gaining employment
promotes the Medicaid objective to furnish medical
assistance. Ark. App. 6; N.H. App. 10. The agency also
invoked vague notions of experimentation to justify
“community engagement,” stating, again without any
basis in the record, that “it furthers the purposes of the
Medicaid statute to test and evaluate these requirements
as a means to improve beneficiaries’ health and to promote
Role of Medicaid and Section 330 Grant Funding Explained, K aiser
Family Foundation (Mar. 26, 2019). In 2017, health centers served one
in four of low–income residents in New Hampshire (91,440 people)
and one in six of low–income residents in Arkansas (210,380 people).
See U.S. Dept. of Health & Human Servs., Health Resources and
Services A dministration, Bureau of Primary Healthcare, 2017
Health Center Data (2018) (Arkansas and New Hampshire tables).

27
beneficiary independence.” Ark. App. 6; see also N.H.
App. 11.
For instance, the record contains extensive opposition
to CMS’ “community engagement” policy as an eligibility
condition, based on the large body of evidence showing
the catastrophic impact of work requirements seen in
programs such as cash assistance or TANF. Ark. App.
1269–73, 1276–80, 1301–05, 1330–43; N.H. App. 1949–51,
1480, 2204–18. In addition, an examination of eight State
Medicaid work demonstration proposals by the Medicaid
and CHIP Payment and Access Commission (“MACPAC”),
created to advise Congress on Medicaid services, see
42 U.S.C. § 1396, reported that: (1) only one third of
people losing TANF benefits found jobs that included
employer–sponsored coverage; (2) almost half of the jobs
held by Medicaid beneficiaries were at small businesses
not required under the ACA to provide health insurance;
and (3) 40 percent worked in the agriculture and service
industries, known for their low employer–sponsored
insurance offer rates. MACPAC, Work as a Condition of
Medicaid Eligibility: Key Take–Aways from TANF (Oct.
2017); see also MaryBeth Musumeci & Julia Zur, Medicaid
Enrollees and Work Requirements: Lessons from the
TANF Experience, K aiser Family Foundation (Aug.
2017); Brantley et al., As Biden Administration Begins
Unwinding Them, Medicaid Work Experiments Remain
Unreasonable, Unnecessary and Harmful, supra. The
only experimental question Petitioners conceivably could
have tried to answer – so harmful as to take one’s breath
away – is whether attaching a similar requirement to
medical assistance would produce similar catastrophic
results. To the many concerns raised in the record,
CMS provided a cursory response best summarized

28
as it “has considered those comments,” and embraced
uncritically the premise that a work requirement somehow
“improves beneficiaries’ health” or “promote[s] beneficiary
independence.” Ark. App. 6; see also N.H. App. 12 (CMS’
cursory responses to record comments).
CMS was also warned repeatedly with respect
to extensive research showing the adverse impact of
coverage lock–outs such as the “potential 9–month
length of the non–eligibility period” that could result
from noncompliance with the community engagement
requirement and the two–months reduction of retroactive
eligibility in Arkansas’s demonstration. Ark. App. 1265–
68, 1276–80, 1294–95, 1296–1300, 1306–29; see also N.H.
App. 1486–93, 2204–22, 2240–50, 2692–2727 (coverage
lock out harms) and 1479–82, 1486–93, 1952–57, 2200–50
(harms of waiving retroactive coverage).
CMS’ unresponsive answer was that “[w]e believe
that the overall health benefits to the effected [sic]
population through community engagement outweigh the
health–risks with respect to those who fail to respond
and who fail to seek exemption from the programs [sic]
limited requirements.” Ark. App. 7; see also N.H. App. 11.
CMS never explained what health risks or what health
benefits it evaluated or what risks–to–benefits analysis
it conducted, if any, to reach its decision to approve the
community engagement requirement and other changes
in these demonstrations. The record contains nothing to
show that Petitioners actually considered the multiple
public comments that warned these demonstrations could
not promote the objectives of Medicaid but would harm
thousands of beneficiaries. Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2126–27 (2016) (acknowledging

29
a factor only to dismiss it without reason or discussion
is no substitute for actually considering it); Getty v. Fed.
Savs. & Loan Ins. Corp., 805 F.2d 1050, 1055 (D.C. Cir.
1986) (noting that “[s]tating that a factor was considered…
is not a substitute for considering it” and rejecting as
“conclusory” an agency statement that all relevant factors
had been considered). The records clearly weighed against
approval of the demonstrations at issue.
Petitioners’ cavalier approach to approving these
demonstrations is self–evident. In violation of the research
authority on which its actions rested, CMS turned a
blind eye to actual research findings, undertook actions
contrary to compelling evidence, implemented a major
policy change after the mandatory comment periods
had concluded, and failed to weigh the health risks these
demonstrations would trigger. See 42 U.S.C. §§ 1315(d)(2)
(A), (C). In sum, CMS did not meaningfully consider the
relevant factors, failed to document a reasoned decision
to approve these demonstrations, and offered implausible
explanations of the health gains to be had by imposing
work requirements or depriving expansion beneficiaries
of medical assistance. 5
5. The Foundation for Government Accountability (“FGA”)
submitted an amicus curiae brief in these cases lacking references
to independent research on the impact of work requirements in
Arkansas’s Medicaid program. See Br. Amicus Curiae of the Foundation
for Government Accountability in Supp. of Pet’rs (Jan. 26, 2021) at
13–16. Said brief relies mainly on FGA reports, which lack comparison
groups, ignore beneficiaries’ harm and do not demonstrate that any
employment gains were better when work requirements were in effect
than when they were not. See Brantley et al., As Biden Administration
Begins Unwinding Them, Medicaid Work Experiments Remain
Unreasonable, Unnecessary and Harmful, supra.

30
Moreover, the agency disregarded long–standing
research that demonstrates that “[m]ost adult Medicaid
beneficiaries work or are limited in their ability to work
because of health problems, schooling, child care, or
other needs. Many who would lose Medicaid eligibility
are working or trying to work, but are unable to comply
with the rules because they face major barriers to steady
employment or cannot navigate the procedural barriers.”
Ku & Brantley, Medicaid Work Requirements, supra.
An agency action that “entirely failed to consider an
important aspect of the problem, offered an explanation
for its decision that runs counter to evidence before the
agency, or is so implausible that it could not be ascribed to
a difference in view or the product of agency expertise” is
arbitrary and capricious. Motor Vehicle Mfrs. Ass’n of U.S.
v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1982).
C.

There is No Realistic Expectation That
Those Leaving Medicaid for Work will Find
Alternative Sources of Health Insurance.

In approving these two demonstrations, Petitioners
asserted, without explaining on what basis, that work
requirements create “appropriate” incentives for
beneficiaries to gain employment or help individuals and
families attain or retain capability for independence or
self–care. Ark. App. 3, 6; N.H. App. 6. This assertion
rested on two assumptions: (1) part time work at low
wages offers employer health benefits and (2) threatening
people with the loss of Medicaid will lead them to find
the jobs with generous benefits. However, Petitioners
cited no tested, supporting evidence. Indeed, CMS
permitted both States to abandon the subsidized employer
insurance component of the original demonstrations –

31
one that, it should be noted, had produced exactly forty
participants in Arkansas. Ark. App. 3. All evidence points
in the opposite direction: part–time, low–wage jobs come
without health benefits. Employee health benefits for
low–wage workers are uncommon: an average of sixteen
percent of poor adults had access to employer–sponsored
insurance in the United States in 2016. See K aiser Family
Foundation, Health Insurance Coverage of the Total
Population (2016); Sara Rosenbaum et al., The Trump
Administration’s Deeply Flawed Assumptions that
Underlie its Medicaid Compelled Work Experiments,
supra. These demonstrations were not grounded on
evidence or reasonable theory, rendering their approval
contrary to the express experimental authority in § 1115.
Moreover, there is no evidence to suggest that
depriving people of Medicaid will lead to greater levels of
employer–sponsored insurance. For the people who lose
Medicaid because they fail to satisfy work and “community
engagement” requirements, a return to persistently
uninsured status will be the norm. Unsurprisingly, in
addressing the Arkansas demonstration at issue in this
appeal, MACPAC noted that “[w]ork and community
engagement waivers represent a significant new policy
direction for the Medicaid program,” expressed its
concern that “there was not an approved evaluation design
in place at the time of implementation,” and “urge[d] HHS
to pause disenrollments under the waiver.” See Letter
from Penny Thompson, MACPAC Chair, to Alex Azar
II, Secretary of HHS at 2, 4 (Nov. 8, 2018). Indeed, the
independent research into the first–year consequences of
the Arkansas experiment found no significant change in
employer coverage. See Sommers et al. (Sept. 2020), supra.

32
Petitioners’ actions were the antithesis of a carefully
designed experiment. These demonstrations amounted
to a naked move to fundamentally alter Medicaid
eligibility policy nationally. Petitioners approved similar
demonstrations for eleven other States (Arizona, Georgia,
Indiana, Michigan, Nebraska, Ohio, South Carolina,
Utah and Wisconsin – plus Kentucky and Maine, which
terminated their projects), of which eight still lack an
approved evaluation design. See CMS, State Waivers
List (last visited Feb. 12, 2021). Eight additional States
(Alabama, Idaho, Mississippi, Montana, North Carolina,
Oklahoma, South Dakota and Tennessee) applied and
are pending approval. Federal Pet’rs’ Br. at 15, n.6.
There is no authority to place nearly half the country
under demonstrations that extend no consideration to
beneficiary impact, respond to flawed assumptions,
and lack hypothesis testing and objective evaluation.
Petitioners do not have this sweeping discretion under
any plausible reading of the law.

33
CONCLUSION
For the foregoing, this Court should affirm the
decisions of the Court of Appeals.
February 25, 2021		

Respectfully submitted,
Edward T. Waters
Counsel of Record
Phillip A. Escoriaza
Feldesman Tucker
Leifer Fidell LLP
1129 20th Street, NW, Suite 400
Washington, DC 20036
(202) 466-8960
ewaters@ftlf.com
Counsel for Amici Curiae

APPENDIX

1a
Appendix
APPENDIX
List of Amici Curiae
Deans & Associate Deans
Adnan A . Hyder, MD, M PH, PhD, Sen ior
A ssoc i at e De a n for Re sea rch; P rofe ssor,
Department of Global Health; Director, Center
on Com mer c i a l Det er m i n a nt s of He a lt h;
Mi lken Institute School of P ublic Hea lth,
The George Washington University
Ayman El–Mohandes, MBBCh, MD, MPH, Dean,
CUNY Graduate School of Public Health & Health
Policy
Jane Hyatt Thorpe, JD, Professor and Senior
Associate Dean for Academic, Student and Faculty
Affairs, Milken Institute School of Public Health,
The George Washington University
Jody Heymann, MD, PhD, Dean, Fielding School
of Public Health, University of California, Los
Angeles
Linda P. Fried, MD, MPH, Dean and DeLamar
Professor of Public Health, Mailman School of
Public Health, Columbia University
Lynn R. Goldman, MD, MPH, MS, Michael
and Lori Milken Dean of Public Health, Milken
Institute School of Public Health, The George
Washington University

2a
Appendix
Michael C. Lu, MD, MPH, Dean, UC Berkeley
School of Public Health
Paula Lantz, PhD, Associate Dean for Academic
Affairs, James B. Hudak Professor of Health
Policy, and Professor of Public Policy and Health
Management & Policy, Gerald R. Ford School of
Public Policy, University of Michigan
Sandro Galea, MD, MPH, DrPH, Dean and Robert
A. Knox Professor, School of Public Health, Boston
University
Sherry Glied, MA, PhD, Dean and Professor of
Public Service, Robert F. Wagner Graduate School
of Public Services, New York University
Sten H. Vermund, MD, PhD, Dean and Anna M.R.
Lauder Professor of Public Health, Professor of
Pediatrics, Yale School of Medicine, Yale University
Thomas A. LaVeist, PhD, Dean and Weatherhead
Presidential Chair in Health Equity, Tulane
University School of Public Health
Chairs
Anne Markus, PhD, MHS, JD, Professor and Chair,
Department of Health Policy and Management,
Mi lken Institute School of P ublic Hea lth,
The George Washington University

3a
Appendix
Heather A. Young, PhD, MPH, Vice Chair and
Professor, Department of Epidemiology, Milken
Institute School of Public Health, The George
Washington University
Jonathan Oberlander, PhD, Professor and Chair,
Department of Social Medicine, Professor,
Department of Health Policy & Management,
Adjunct Professor, Political Science, University of
North Carolina at Chapel Hill
Julia Zoe Beckerman, JD, MPH, Teaching
Associate Professor and Vice Chair for Academics,
Department of Health Policy and Management,
Milken Institute School of Public Health, The
George Washington University
Manya Magnus, PhD, MPH, Professor and
Associate Chair, Department of Epidemiology,
Milken Institute School of Public Health, The
George Washington University
Michael Sparer, PhD, JD, Chair and Professor,
Department of Health Policy and Management,
Mailman School of Public Health, Columbia
University
Scholars
Alan B. Cohen, ScD, Research Professor, Markets,
Public Policy, and Law, Boston University
Questrom School of Business

4a
Appendix
A llison K. Hoffman, JD, Professor of Law,
University of Pennsylvania Carey Law School
Andrew Bindman, MD, Professor of Medicine,
Philip R. Lee Institute for Health Policy Studies,
University of California, San Francisco
Amita N. Vyas, PhD, MHS, Associate Professor,
Milken Institute School of Public Health, The
George Washington University
Annie Lewis–O’Connor, PhD, NP, MPH, Instructor
in Medicine, Harvard Medical School, Associate
Scientist, Division of Women’s Health, Brigham
and Women’s Hospital
Claire D. Brindis, DrPH, Distinguished Professor
of Pediatrics and Health Policy, Emerita Director,
Phillip R. Lee Institute for Health Policy Studies,
University of California San Francisco
David M. Frankford, JD, Professor of Law,
Rutgers University
David Michaels, PhD, MPH, Professor, Department
of Environmental and Occupational Health, Milken
Institute School of Public Health, The George
Washington University
Dona ld M. Ber w ick, MD, M PP, Lectu rer,
Department of Health Care Policy, Harvard
Medical School, Harvard University

5a
Appendix
Donald Moynihan, PhD, McCourt Inaugural Chair
and Professor, McCourt School of Public Policy,
Georgetown University
Dora L. Hughes, MD, MPH, Associate Research
Professor, Department of Health Policy and
Management, Milken Institute School of Public
Health, The George Washington University
Eve Rittenberg, MD, Assistant Professor of
Medicine, Harvard Medical School, Primary Care
Physician, Brigham and Women’s Hospital
Frank J. Thompson, PhD, Board of Governors
Distinguished Professor, School of Public Affairs
& Administration, Center for State Health Policy,
Rutgers University
Harald Schmidt, PhD, Assistant Professor,
Department of Medical Ethics and Health Policy,
Research Associate, Center for Health Incentives
and Behavioral Economics, Perelman School of
Medicine, University of Pennsylvania
Ingrid Katz, MD, MHS, Assistant Professor of
Medicine, Harvard Medical School, Associate
Physician, Brigham and Women’s Hospital
Ishani Ganguli, MD, MPH, Assistant Professor of
Medicine, Harvard Medical School, Brigham and
Women’s Hospital Division of General Internal
Medicine and Primary Care

6a
Appendix
James M. Perrin, MD, Professor of Pediatrics,
Harvard Medical School
Jamila Michener, PhD, Assistant Professor of
Government, Cornell University
Janet Heinrich, DrPH, RN, FAAN, Research
Professor, Department of Health Policy and
Management, Milken Institute School of Public Health,
The George Washington University
Janet Rich–Edwards, ScD, MPH, Associate
Professor of Medicine, Harvard Medical School,
Associate Professor in Epidemiology, Harvard
T.H. Chan School of Public Health, Director of
Developmental Epidemiology, Connors Center for
Women’s Health and Gender Biology, Brigham and
Women’s Hospital, Division of Women’s Hospital,
Department of Medicine
Jeffrey L. Ecker, MD, Joe V. Meigs Professor of
Obstetrics, Gynecology and Reproductive Biology,
Harvard Medical School, Chief, Obstetrics and
Gynecology, Massachusetts General Hospital
Jeffrey Levi, PhD, Professor of Health Policy and
Management, Milken Institute School of Public
Health, The George Washington University
Joel Teitelbaum, JD, LLM, Associate Professor
and Director of the Hirsh Health Law and Policy
Program, Department of Health Policy and
Management, The George Washington University

7a
Appendix
Judith Feder, PhD, Professor, McCourt School of
Public Policy, Georgetown University
Katherine Horton, RN, MPH, JD, Research
Professor in the Department of Health Policy and
Management, Milken Institute School of Public
Health, The George Washington University
Katherine Swartz, PhD, MS, Adjunct Professor of
Health Policy and Economic, Harvard T.H. Chan
School of Public Health, Harvard University
Kari P. Braaten, MD, MPH, Assistant Professor of
Obstetrics, Gynecology and Reproductive Biology,
Harvard Medical School, Medical Director, Fish
Center for Women’s Health, Brigham and Women’s
Hospital
Lara Cartwright–Smith, JD, MPH, Associate
Professor and Program Director, MPH in Health
Policy, Milken Institute School of Public Health,
The George Washington University
Leighton Ku, PhD, MPH, Professor, Department of
Health Policy and Management, Director, Center
for Health Policy Research, Milken Institute
School of Public Health, The George Washington
University
Lynn A. Blewett, PhD, Mayo Professor, Department
of Health Policy and Management, University of
Minnesota School of Public Health

8a
Appendix
Marsha Regenstein, PhD, Professor in the
Department of Health Policy and Management,
Milken Institute School of Public Health, The
George Washington University
Maureen Byrnes, Teaching Instructor, Department
of Health Policy and Management, Milken Institute
School of Public Health, The George Washington
University
Melissa McCarthy, ScD, MS, Professor of Health
Policy and of Emergency Medicine, Department of
Health Policy and Management, Milken Institute
School of Public Health, The George Washington
University
Michele Ver Ploeg, Director and A ssociate
Professor, Food and Health Policy Institute,
Department of Exercise and Nutrition Sciences,
Milken Institute School of Public Health, The
George Washington University
Naomi Seiler, JD, Associate Research Professor,
Department of Health Policy and Management,
Milken Institute School of Public Health, The
George Washington University
Nicole Huberfeld, JD, Professor of Health Law,
Ethics & Human Rights, Health Law, Policy and
Management, Boston University School of Public
Health

9a
Appendix
Olga Acosta Price, PhD, Associate Professor,
Department of Prevention and Community Health,
Milken Institute School of Public Health, The
George Washington University
Pam Silberman, JD, DrPH, Professor, Department
of Health Policy and Management, Gillings School
of Global Public Health, University of North
Carolina at Chapel Hill
Paul H. Wise, MD, MPH, Richard E. Behrman
Professor in Child Health, Department of Pediatrics
– Neonatology, Stanford University
Paula Tavrow, PhD, Director, Bixby Program
in Population and Reproductive Health, Adjunct
Professor, Department of Community Health
Sciences, Fielding School of Public Health,
University of California, Los Angeles
Peter Shin, PhD, MPH, Associate Professor,
Department of Health Policy and Management,
The George Washington University
Philip Rocco, PhD, Assistant Professor of Political
Science, Marquette University
Rand E. Rosenblatt, JD, Professor of Law, Rutgers
Law School, Rutgers University
Sara Rosenbaum, JD, Harold and Jane Hirsh
Professor of Health Law and Policy, Department of

10a
Appendix
Health Policy and Management, Milken Institute
School of Public Health, The George Washington
University
Sean D. Cleary, PhD, MPH, Associate Professor,
Depa r tment of Epidemiolog y, The George
Washington University
Sidney D. Watson, JD, Jane and Bruce Robert
Professor of Law, Center for Health Law Studies,
Saint Louis University School of Law
Susan F. Wood, PhD, Professor, Department of
Health Policy and Management, Director, Jacobs
Institute of Women’s Health, Milken Institute
School of Public Health, The George Washington
University
Sylvia Law, JD, Elizabeth K. Dollard Professor of
Law, Medicine and Psychiatry, School of Law, New
York University
T imothy S. Jost , J D, Emer itus P rofessor,
Washington and Lee University School of Law
Timothy M. Westmoreland, JD, Professor from
Practice, Georgetown University School of Law
Wendy K. Mariner, JD, LLM, MPH, Edward
R. Utley Professor of Health Law, Professor,
Center for Health Law, Ethics & Human Rights,
Director, JD-MPH Dual Degree Program, Boston

11a
Appendix
University School of Public Health, Professor of
Law, Boston University School of Law, Professor
of Medicine, Boston University School of Medicine
Wendy E. Parmet, JD, Matthews Distinguished
University Professor of Law and Director, Center
for Health Policy and Law, Professor of Public
Policy and Urban Affairs, Northeastern University
School of Public Policy and Urban Affairs
William M. Sage, MD, JD, James R. Dougherty
Chair for Faculty Excellence, School of Law,
Professor of Surgery and Perioperative Care, Dell
Medical School, The University of Texas at Austin

